                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2004 and 2003



                                               This report was prepared by M.D. Oppenheim & Company, P.C., under
                                               contract to the U.S. Department of Labor, Office of Inspector General, and
                                               by acceptance, it becomes a report of the Office of Inspector General.


                                                                                     __________________________
                                                                                    Assistant Inspector General for Audit




                                                                               Date Issued: September 30, 2005
                                                                               Report Number: 22-05-011-04-432
                                            DCCA Financial Statements and Independent Auditors’ Report


Table of Contents

Independent Auditors’ Report.................................................................................... 3


District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements .................................................................................................. 7


    •    Management Discussion and Analysis ......................................................... 10


    •    Balance Sheets ................................................................................................ 15


    •    Statements of Net Cost .................................................................................. 16


    •    Statements of Changes in Net Position......................................................... 17


    •    Statements of Budgetary Resources............................................................ 18


    •    Statements of Financing ................................................................................. 19


    •    Notes to the Financial Statements ................................................................ 20




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                     1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-011-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                             Independent Auditors’ Report

 Ms. Victoria Lipnic, Assistant Secretary
 Employment Standards Administration
 U.S. Department of Labor

 The Chief Financial Officers Act of 1990 (CFO Act) requires agencies to report annually
 to Congress on their financial status and any other information needed to fairly present
 the agencies’ financial position and results of operations. The District of Columbia
 Workmen’s Compensation Act Special Fund (the Fund) is included in the U.S.
 Department of Labor (DOL) annual financial statements issued to meet the CFO Act
 reporting requirements. In addition, the District of Columbia Workmen’s Compensation
 Act requires that an annual report be made to Congress on the financial status of the
 Fund.

 The objectives of our audit are to express an opinion on the fair presentation of the
 Fund’s financial statements, obtain an understanding of the Fund’s internal control,
 and test compliance with laws and regulations that could have a direct and material
 effect on the financial statements.

 We have audited the balance sheet of the Fund as of September 30, 2004 and the
 related statements of net cost, changes in net position, budgetary resources, and
 financing for the year then ended. These financial statements are the responsibility of
 the Fund’s management. Our responsibility is to express an opinion on these financial
 statements based on our audit. The Fund’s financial statements as of September 30,
 2003 were audited by the U.S. Department of Labor, Office of Inspector General,
 whose report dated March 5, 2004, expressed an unqualified opinion on those
 statements.

 We conducted our audit in accordance with auditing standards generally accepted in
 the United States of America; the standards applicable to financial audits contained in
 Government Auditing Standards, issued by the Comptroller General of the United
 States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
 Requirements for Federal Financial Statements. Those standards require that we plan
 and perform the audit to obtain reasonable assurance about whether the financial
 statements are free of material misstatements.




Prepared by M.D. Oppenheim & Company, P.C., for the                                       3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.

Opinion on Financial Statements

In our opinion the financial statements referred to above present fairly, in all material
respects, the assets, liabilities, and net position of the Fund as of September 30, 2004;
and the net cost, changes in net position, budgetary resources, and reconciliation of net
cost to budgetary resources for the year then ended in conformity with accounting
principles generally accepted in the United States of America.

Other Accompanying Information

Our audit was conducted for the purpose of forming an opinion on the Fund’s financial
statements taken as a whole. The information included in the Management Discussion
and Analysis section of the Fund’s annual financial statements is not a required part of
the principal financial statements. The information is required by the Federal
Accounting Standards Advisory Board and OMB Bulletin 01-09. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the information. However,
we did not audit the information and express no opinion on it.

Report on Internal Control

In planning and performing our audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control,
determined whether these internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements. We
limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982, such as those controls relevant to ensuring efficient operations. The objective
of our audit was not to provide assurance on internal control. Consequently, we do not
provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our


4                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-011-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report

judgment, could adversely affect the agency’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that
would be material in relation to the financial statements being audited may occur and
not be detected within a timely period by employees in the normal course of performing
their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may, nevertheless, occur and not be
detected. We noted a certain matter, discussed in the following paragraphs, involving
the internal control and its operations that we consider to be a reportable condition.
However, the reportable condition is not believed to be a material weakness.
With respect to internal control related to performance measures included in the
Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and accordingly,
we do not provide an opinion on such controls.

Current Year Reportable Condition

The preparation and review of the financial statements of the Fund involves three
offices within the U.S. Department of Labor. The Fund’s financial statements are
prepared by ESA’s Office of Management, Administration, and Planning, Division of
Financial Management with assistance from ESA’s Office of Workers’ Compensation
Programs, Division of Longshore and Harbor Workers’ Compensation. The report is
then submitted to the Office of the Chief Financial Officer, Division of Financial
Statements for review before being transmitted to the Office of Inspector General for
audit.

The FY 2004 financial statements contained accounting (summarization), and
presentation errors. The Management Discussion and Analysis, financial statements,
and notes did not include all of the disclosures as required by accounting principles
generally accepted in the United States of America. Without adequate controls over the
financial reporting process, management cannot ensure that financial reports are
prepared accurately and timely in accordance with applicable accounting standards.

We recommend that the Assistant Secretary for Employment Standards ensure that
controls are developed, implemented and documented that will ensure accurate and
timely preparation of future financial statements.

In response to the issues noted, ESA management made all significant corrections to
the report and will implement procedures to strengthen the FY 2005 financial statement
preparation process. This finding is resolved and open pending the results of the
implementation of the proposed procedures in FY 2005.

Prepared by M.D. Oppenheim & Company, P.C., for the                                         5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

Report on Compliance with Laws and Regulations

The management of the Fund is responsible for complying with laws and regulations
applicable to the Fund. As part of obtaining reasonable assurance about whether the
Fund’s financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and certain other laws and regulations specified in OMB Bulletin No. 01-02.
We limited our tests of compliance to these provisions, and we did not test compliance
with all laws and regulations applicable to the Fund. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we
do not express such an opinion.

The results of our tests of compliance with laws and regulations, described in the
preceding paragraph, disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 01-02.

This report is intended solely for the information of the management of the District of
Columbia Workmen’s Compensation Act Special Fund and U.S. Department of Labor,
the Office of Management and Budget, and the Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




April 19, 2005




6                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-011-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   DISTRICT OF COLUMBIA WORKMEN’S
    COMPENSATION ACT SPECIAL FUND
         FINANCIAL STATEMENTS
       SEPTEMBER 30, 2004 AND 2003




              Office of Management, Administration and Planning
                       Division of Financial Management



M.D. Oppenheim & Company, P.C. for the                                                    7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                              TABLE OF CONTENTS



                                                                                                 PAGE

ACRONYMS                                                                                                   ii

MANAGEMENT DISCUSSION AND ANALYSIS

    Mission and Organizational Structure                                                           I- 1
    Financial Highlights                                                                           I- 1
    Performance Goals and Results                                                                  I- 2
    Internal Controls and Systems                                                                  I- 2
    Known Risks and Uncertainties                                                                  I -3
    Limitations of the Financial Statements                                                        I- 3

FINANCIAL STATEMENTS

    Balance Sheets                                                                                II   -   1
    Statements of Net Cost                                                                        II   -   2
    Statements of Changes in Net Position                                                         II   -   3
    Statements of Budgetary Resources                                                             II   -   4
    Statements of Financing                                                                       II   -   5

NOTES TO FINANCIAL STATEMENTS

    Note 1 - Summary of Significant Accounting Policies                                          III   -   1
    Note 2 - Funds with U.S. Treasury                                                            III   -   3
    Note 3 - Investments                                                                         III   -   3
    Note 4 - Accounts Receivable, Net                                                            III   -   4
    Note 5 - Liabilities – Assessment Overpayments by Carriers                                   III   -   5
    Note 6 - Statement of Budgetary Resources                                                    III   -   5




                                                          i




8                                                              M.D. Oppenheim & Company, P.C. for the
                                                   U.S. Department of Labor—Office of Inspector General
                                                                        Report Number:22-05-011-04-432
                                     DCCA Financial Statements and Independent Auditors’ Report

                              DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND

                                               ACRONYMS




DCCA          District of Columbia Workmen’s Compensation Act Special Fund

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

ESA           Employment Standards Administration

FASAB         Federal Accounting Standards Advisory Board

FMFIA         Federal Managers' Financial Integrity Act

FY            Fiscal Year

JFMIP         Joint Financial Management Improvement Project

LHWCA         Longshore Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers’ Compensation Programs

U.S.C.        United States Code




                                                     ii



M.D. Oppenheim & Company, P.C. for the                                                       9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                         District of Columbia Workmen’s
                         Compensation Act Special Fund




                                  SECTION I

               MANAGEMENT DISCUSSION
                             AND ANALYSIS




                                   Fiscal Year 2004
                                 Financial Statements


10                                                  M.D. Oppenheim & Company, P.C. for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-011-04-432
                                            DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2004


MISSION AND ORGANIZATIONAL STRUCTURE

Two Special Funds are administered by the Office of Workers’ Compensation Program (OWCP) under section 44 of
the Longshore Harbor Workers’ Compensation Act (LHWCA); the Longshore Act Special Fund created under the
original Act in 1927 and the Special Fund under the District of Columbia Workmen’s Compensation Act of 1928
(DCCA). These Funds were established for the primary purpose of equitably distributing among all employers the
liabilities associated with second injury claims (a “second injury” is an injury to a worker which, in combination
with an existing permanent partial impairment, results in the worker’s increased permanent disability or death).

Organizationally the DCCA Fund is administered by the Employment Standards Administration (ESA) Division of
Longshore and Harbor Workers’ Compensation program (DLHWC) whose mission is to effectively administer a
program of compensation and medical benefits to covered workers who are injured on the job or suffer from
occupational disease. The DLHWC has direct responsibility for all aspects of the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain cases, medical care payments to
District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of Columbia
became responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation services for job-related
injuries, diseases or death of certain private-sector workers in the District of Columbia. Generally, benefits are paid
directly from private funds by an authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the Longshore and Harbor Workers’ Compensation statute as extended to the District of
Columbia Act of 1928 are paid from the Fund comprised primarily of employer contributions (assessments) and
administered by the DLHWC. In FY 2004, 696 workers (customers) received compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the Custodian, holding the funds
in trust. The Fund is not property of the United States, but can only be disbursed as specified in Section 44(i) of the
Longshore Act. Administrative services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the accompanying financial
statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $10,351,670 in FY 2004. This compares with assessment revenue of
$9,509,942 for FY 2003. In addition, investment income for the Fund was $30,582 for FY 2004 compared to $48,126
for FY 2003. The average interest rate earned during FY 2004 was 1.12 percent compared to 1.21 percent for FY 2003.

                                                           I-1



M.D. Oppenheim & Company, P.C. for the                                                                               11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2004


FINANCIAL HIGHLIGHTS - Continued

The Fund’s costs remained relatively stable compared to FY 2003; $10,816,252 for FY 2004 compared to
$11,039,055 for FY 2003. Proceeds of the Fund are used for payments under: section 8(f) for second injury claims;
section 10(h) for initial and subsequent annual adjustments in compensation for permanent total disability or related
death from injuries which occurred prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and
8(g) for the procurement of medical and vocational rehabilitation services for permanently disabled employees and
to provide a maintenance allowance to workers undergoing rehabilitation; section 18(b) for compensation to injured
workers in cases of employer default; and section 7(e) for the cost of certain medical examinations.

PERFORMANCE GOALS AND RESULTS

The DCCA performance is included in the consolidated performance measures for the Employment Standards
Administration (ESA). ESA supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal
broadly promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome
Goal 2.2 – To Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits are
protected and that employers administer benefit programs in an appropriate way. The DCCA Fund administered under
LHWCA program assists in meeting this outcome goal. In order to accomplish this outcome LHWCA established
the following performance goal for FY 2004:

              Reduce by four percent over the FY 2002 baseline the average time required to resolve disputed
              issues in Longshore and Harbor Worker’s Compensation Program contested cases.

This target was achieved, with 260 days as the average number of days to resolve disputed issues, thirteen days
below the target of 273 days. The objective of this indicator is to quickly resolve disputes, enabling earlier benefit
delivery and reducing litigation costs. In FY 2004 the average time to resolve disputed issues improved.
Intervention when disputes began along with a variety of tools used to resolve them created confidence in the
program’s role as a mediator between injured worker and employer, and highlighted its efforts to become more
customer-centered.

Management has focused on timeliness and improved amicability in handling contested cases. Other program
reforms ensure proper data collection and reporting, and improved communications with injured workers, employers
and insurers. In FY 2005, these approaches will intensify. Additional training of claims staff will continue to
improve mediation skills. The indicator for FY 2005 is to continue to reduce the average proceeding time with a FY
2005 target of 268

INTERNAL CONTROLS AND SYSTEMS

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial Management and Insurance is a
very small unit comprised of six employees and one supervisor, all working in very close proximity to each other.
Much of the oversight, evaluation, monitoring, and control and almost all of the supervisory activity is informal,
done on a face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating in the same
fashion as the Branch of Financial Management and Insurance.


                                                        I-2

12                                                              M.D. Oppenheim & Company, P.C. for the
                                                    U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 22-05-011-04-432
                                             DCCA Financial Statements and Independent Auditors’ Report

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                    OVERVIEW OF THE REPORTING ENTITY
                                           SEPTEMBER 30, 2004

INTERNAL CONTROLS AND SYSTEMS - Continued

Cases paid by the Special Fund are paid as a result of a formal Compensation Order issued by a District Director or
Administrative Law Judge, setting forth precisely what payment is due and to whom the payment is due. Each new
case coming in for Special Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus insuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review processes, biweekly payment
summaries, the SF-224 report and statement of differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means of weekly staff meetings, a
written procedure manual, frequent e-mail communication, and frequent individual communications regarding
changes, problems and issues.

KNOWN RISKS AND UNCERTANTIES

The DCCA Fund is assessed one year at a time for current expenses. There is no reserve for future Fund
obligations. In keeping with the requirement of section 44 of the Longshore Act, obligations are paid as they are
incurred. Benefit payments are concentrated among a relatively few. For example, the top 9 carriers/self-insurers
alone pay over 63% of District of Columbia assessments. Taken together, these two factors could indicate future
problems if one or more of the largest payers become insolvent and unable to pay their assessment obligations.
Temporary collection issues could result, necessitating special, unscheduled assessments or other actions to keep the
Special Fund funded for current liabilities.

In addition, an insurance company group that is currently insolvent and being operated by the State of Illinois
Insurance Department is responsible for nearly 20% of the total District of Columbia assessment. If these carriers
go into liquidation and stop paying their assessment, this would precipitate a collection crisis for the District of
Columbia assessment. This situation is exacerbated by the fact that since the District of Columbia Workmen’s
Compensation Act of 1928 has been repealed and the DC Special Fund only assesses based on payments in cases
that arose prior to July 26, 1982, the annual Special Fund assessment is assessed against a shrinking base of industry
payments.

LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

     -   The financial statements have been prepared to report the financial position and results of operations of the
         entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

     -   While the statements have been prepared from the books and records of the Fund in accordance with the
         formats prescribed by OMB, the statements are different from the financial reports used to monitor and control
         budgetary resources which are prepared from the same books and records.

    -    The statements should be read with the realization that they are for a component of the U.S. Government, a
         sovereign entity, that liabilities cannot be liquidated without the enactment of an appropriation, and that the
         payment of all liabilities other than for contracts can be abrogated by the sovereign entity.
                                                             I–3

M.D. Oppenheim & Company, P.C. for the                                                                                   13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                         District of Columbia Workmen’s
                         Compensation Act Special Fund




                                 SECTION II

                  FINANCIAL STATEMENTS




                             Fiscal Year 2004 and 2003
                                Financial Statements


14                                                  M.D. Oppenheim & Company, P.C. for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-011-04-432
                                         DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND
                                            BALANCE SHEETS

                                       As of September 30, 2004 and 2003




                                                                                2004            2003


  ASSETS

    Intragovernmental assets
      Funds with U.S. Treasury (Note 2)                                    $       2,267   $       4,259
      Investments (Note 3)                                                     5,006,944       4,897,672
         Total intragovernmental assets                                        5,009,211       4,901,931

    Accounts receivable, net of allowance (Note 4)                              279,659         103,688

  Total assets                                                             $   5,288,870   $   5,005,619



  LIABILITIES AND NET POSITION

  Liabilities
    Accrued benefits payable                                               $     282,550   $     175,279
    Deferred revenue                                                           2,761,461       2,217,721
    Other liabilities (Note 5)                                                 1,217,390       1,151,150

  Total liabilities                                                            4,261,401       3,544,150

  Net position
   Cumulative results of operations                                            1,027,469       1,461,469

  Total liabilities and net position                                       $   5,288,870   $   5,005,619




  The accompanying notes are an integral part of these statements.

                                                     II - 1

M.D. Oppenheim & Company, P.C. for the                                                                     15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND

                                        STATEMENTS OF NET COST
                              For the Years Ended September 30, 2004 and 2003




                                                                            2004            2003


SPECIAL FUND NET COST OF OPERATIONS

With the public
Second injury compensation, Section 8(f)                               $   9,978,628   $   10,192,692
Wage increase compensation, Section 10(h)                                    648,264          665,698
Compensation payment for self-insurer in default, Section 18(b)              189,360          180,665

Net cost of operations                                                 $ 10,816,252    $   11,039,055




The accompanying notes are an integral part of these statements.

                                                     II - 2

16                                                           M.D. Oppenheim & Company, P.C. for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                         Report No: 22-05-011-04-432
                                         DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                STATEMENTS OF CHANGES IN NET POSITION
                                For the Years Ended September 30, 2004 and 2003




                                                                           2004               2003


  CUMULATIVE RESULTS OF OPERATIONS

  Cumulative results of operations, beginning                        $    1,461,469     $    2,942,456

  Budgetary financing sources:
   Non-exchange revenues:
     Investment interest                                                     30,582             48,126
     Assessments                                                         10,351,670          9,509,942

  Total non-exchange revenues                                            10,382,252          9,558,068

    Net cost of operations                                               (10,816,252)       (11,039,055)

  Net position, end of period                                        $    1,027,469     $    1,461,469




  The accompanying notes are an integral part of these statements.

                                                     II - 3




M.D. Oppenheim & Company, P.C. for the                                                                     17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND

                              STATEMENTS OF BUDGETARY RESOURCES
                             For the Years Ended September 30, 2004 and 2003




                                                                        2004             2003


BUDGETARY RESOURCES (Note 6)

     Budgetary authority:
       Appropriations received                                     $   10,803,721   $    9,639,458
     Unobligated balance:
       Beginning of period                                              4,723,019        5,946,032

     Total budgetary resources                                     $   15,526,740   $   15,585,490



STATUS OF BUDGETARY RESOURCES

     Obligations incurred (Note 6)
      Direct                                                       $   10,807,202   $   10,862,471
     Unobligated balances - available
      Other available                                                   4,719,538        4,723,019

     Total status of budgetary resources                           $   15,526,740   $   15,585,490



RELATIONSHIP OF OBLIGATIONS TO OUTLAYS (Note 6)

     Obligated balance, net, beginning                             $     175,278    $     154,153
     Obligated balance, net, ending
      Accounts payable                                                   282,551          175,278
     Outlays:
      Disbursements                                                    10,699,924       10,841,346

     Net outlays                                                   $   10,699,924   $   10,841,346




The accompanying notes are an integral part of these statements.

                                                  II - 4

18                                                           M.D. Oppenheim & Company, P.C. for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                         Report No: 22-05-011-04-432
                                        DCCA Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND

                                      STATEMENTS OF FINANCING
                             For the Years Ended September 30, 2004 and 2003




                                                                           2004            2003


   RESOURCES USED TO FINANCE ACTIVITIES

     Obligations incurred                                             $   10,807,202   $ 10,862,471
   Total resources used to finance activities                             10,807,202     10,862,471

   COMPONENTS OF THE NET COST OF OPERATIONS
    THAT WILL NOT REQUIRE OR GENERATE
    RESOURCES IN THE CURRENT PERIOD

     Components not requiring or Generating Resources
       Revaluation of assets and liabilities                                  4,812               0
       Benefit overpayments                                                   4,238         176,584
   Total components of net cost of operations that will not
   Require or generate resources in the current period                        9,050         176,584

   Net cost of operations                                             $   10,816,252   $ 11,039,055




   The accompanying notes are an integral part of these statements.

                                                     II - 5


M.D. Oppenheim & Company, P.C. for the                                                                19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                         District of Columbia Workmen’s
                         Compensation Act Special Fund




                                SECTION III

                            NOTES TO THE
                  FINANCIAL STATEMENTS




                             Fiscal Year 2004 and 2003
                                Financial Statements


20                                                  M.D. Oppenheim & Company, P.C. for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-05-011-04-432
                                            DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the District of Columbia Workmen’s Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of
Columbia Workmen’s Compensation Act was amended whereby the Mayor of the District of Columbia became
responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements. Also, these financial statements do not
include the Special Fund administered by the Mayor of the District of Columbia for injury cases occurring after July 26,
1982.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the Fund, in accordance with accounting principles generally accepted in
the United States of America and the form and content requirements of OMB Bulletin 01-09. These financial
statements have been prepared from the books and records of the Fund. These financial statements are not intended
to present, and do not present, the full cost of the District of Columbia Workmen’s Compensation (DCCA) program
administered under the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In
addition to the Fund costs presented in these statements, the full cost of the DCCA portion of the Longshore
Program would include certain direct costs of ESA in the form of salaries and expenses for administration of the
Longshore Program and allocated costs of ESA and other DOL agencies incurred in support of the Longshore
Program. The full cost of the DCCA portion of the Longshore Program is included in the Consolidated Financial
Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use
of federal funds. These financial statements are different from the financial reports, also prepared for the Fund
pursuant to OMB directives, used to monitor the Fund’s use of budgetary resources.


                                                        III – 1


M.D. Oppenheim & Company, P.C. for the                                                                               21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


C.       Funds with U.S. Treasury
The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.
D.       Investments
Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.
E.       Accounts Receivable, Net of Allowance
The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible
to receive benefits.
F.       Accrued Benefits Payable
The District of Columbia Workmen’s Compensation Special Fund provides compensation and medical benefits for work
related injuries to employees of the District of Columbia. The Fund recognizes a liability for disability benefits payable
to the extent of unpaid benefits applicable to the current period.
G.       Assessment Overpayment by Carriers
Assessment overpayments are current liabilities and are to be refunded upon carrier request or applied to reduce future
carrier assessments.
H.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.
I.       Financing Sources Other Than Exchange Revenue
Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers. The Fund also receives interest on Fund investments and on Federal funds in the possession of non-
Federal entities.

                                                         III – 2




22                                                                M.D. Oppenheim & Company, P.C. for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                               Report No:22-05-011-04-432
                                           DCCA Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2004 and 2003


NOTE 2 - FUNDS WITH U.S. TREASURY
Funds with the U.S. Treasury at September 30, 2004 and 2003 consisted of cash deposits of $2,267 and $4,259
respectively. There was $141 in cash deposits at September 30, 2004 and $13 in cash deposits at September 30, 2003
being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act in the Funds
with the U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers and are available for
payment of compensation and medical benefits to covered employees of the defaulted companies.

Funds with U.S. Treasury at September 30, 2004 consisted of the following:

                                              Entity Assets
                  Unobligated      Unobligated       Obligated
                    Balance           Balance       Balance Not              Total         Non-entity
                   Available        Unavailable    Yet Disbursed         Entity Assets      Assets          Total
Special Fund    $         0        $       0       $     2,267            $      2,267     $       0    $     2,267


Funds with U.S. Treasury at September 30, 2003 consisted of the following:

                                              Entity Assets
                  Unobligated      Unobligated       Obligated
                  Balance            Balance        Balance Not             Total          Non-entity
                   Available        Unavailable    Yet Disbursed         Entity Assets      Assets          Total
Special Fund    $         0        $        0      $     4,259            $      4,259     $       0    $     4,259


NOTE 3 - INVESTMENTS

Investments at September 30, 2004 and 2003 consisted of the following:

                                                                          September 30, 2004
                                                        Face                                  Net           Market
                                                       Value              Discount          Value           Value

Intragovernmental securities
  Marketable                                       $ 5,020,000       $ (13,056)          $ 5,006,944    $ 5,006,944


                                                                           September 30, 2003
                                                       Face                                   Net           Market
                                                      Value              Discount           Value            Value

Intragovernmental securities
  Marketable                                        $ 4,903,000          $ (5,328)       $ 4,897,672    $ 4,897,672


                                                       III – 3

M.D. Oppenheim & Company, P.C., for the                                                                            23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 3 – INVESTMENTS – Continued

Investments of $50,400 and $50,000 for 2004 and 2003 are being held as security by authority of Section 32 of the
Longshore and Harbor Workers' Compensation. Section 32 investments relate to the default of self-insured employers
and are restricted. These investments are available for payment of compensation and medical benefits to covered
employees of the defaulted companies. Investments at September 30, 2004 and 2003 consist of short-term U.S. Treasury
Bills and are stated at amortized cost which approximates market. Investments at September 30, 2004, bear interest rates
varying from 1.32% to 1.79% compared to rates varying from 0.90% to 0.96% for 2003. Interest rates on securities
bought and sold during fiscal year 2004 ranged from 0.89% to 1.79% compared to 0.83% to 1.85% for fiscal year 2003.

NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2004 and 2003 consisted of the following:
                                                                                    2004                     2003

Entity assets
  Benefit overpayments                                                             $ 19,250                $ 23,488
  Assessments receivable                                                            361,032                   91,939
  Less: allowance for doubtful accounts                                            (100,623)                 (11,739)

      Total accounts receivable, net                                              $ 279,659                $ 103,688

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

Changes in the allowance for doubtful accounts during 2004 and 2003 consisted of the following:

                                                                 September 30, 2004
                                           Allowance            Write        Revenue                       Allowance
                                              9-30-03            Offs      Adjustment          Bad Debt       9-30-04
Entity assets
  Benefit overpayments                     $ (7,047)       $       -      $        -       $   2,235 $ (4,812)
  Assessment receivable                       (4,692)        101,531       (185,603)         (7,047)    (95,811)
                                           $ (11,739)      $ 101,531     $ (185,603)       $ (4,812) $ (100,623)


                                                                 September 30, 2003
                                           Allowance            Write        Revenue                       Allowance
                                              9-30-02            Offs     Adjustment           Bad Debt       9-30-03
Entity assets
  Benefit overpayments                 $       (3,856)      $      -       $           -       $ (3,191)   $ (7,047)
  Assessment receivable                          (895)        41,564            (41,505)         (3,856)      (4,692)
                                           $   (4,751)      $ 41,564          $ (41,505)       $ (7,047)   $ (11,739)

                                                           III – 4
24                                                                   M.D. Oppenheim & Company, P.C., for the
                                                         U.S. Department of Labor—Office of Inspector General
                                                                                 Report No: 22-05-011-04-432
                                             DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2004 and 2003


NOTE 5 – OTHER LIABILITIES

Other liabilities at September 30, 2004 and 2003 consisted of the following current liabilities:

                                                                             2004                       2003
Other liabilities
  Assessment overpayments by carriers                                      $ 1,166,849                $1,101,137
  Defaulted employer liability
    Held in investments                                                        50,400                     50,000
    Held in cash                                                                  141                         13
                                                                               50,541                     50,013

  Total other liabilities                                                 $ 1,217,390                 $ 1,151,150

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to the funds and investments held by the District of Columbia Special Fund which
are being held as security by authority of Section 32 of the Act. These funds and investments are available for
compensation and medical benefits to covered employees of the defaulted companies. Management estimates that these
funds and investments held will be sufficient to cover the future benefits associated with the covered employees.

Assessment overpayments by carriers represent overpayments received from carriers on annual assessments from the
current and prior years. These overpayments result from carrier reporting errors, adjustments to the assessment and
mergers and consolidations among the assessed carriers. In FY 2002 the overpayment amount was $2,357,793. The
majority of this overpayment amount resulted from reporting errors by two of the participating insurance carriers,
relating to assessments for calendar year 2002 that were incorrectly allocated among the carriers. The carriers causing
this error were over billed by $1,963,734, and the remaining carriers were under billed collectively by the same amount.
Since the carriers’ error in reporting were discovered after the assessment process for calendar year 2002 was closed, this
allocation error was corrected in the calendar year 2003 assessment process.

NOTE 6 – STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources in FY 2004 and FY 2003 consisted of the
following:
                                                                2004               2003

Direct Obligations
  Exempt from apportionment                                          $ 10,807,202          $ 10,862,471


                                                           III – 5




M.D. Oppenheim & Company, P.C., for the                                                                                25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-011-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2004 and 2003


NOTE 6 – STATEMENT OF BUDGETARY RESOURCES - Continued

B. Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government

The Budget of the United States Government with actual amounts for the year ended September 30, 2004, has not been
published as of the issue date of these financial statements. This document will be available in February 2005. In,
addition, the reconciliation of the Report of Budget Execution (SF133) and the Statement of Budgetary Resources will
be performed in Fiscal Year 2005 after the Department receives the final SF133 reports from Trust Fund and allocated
accounts.

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the year ended September 30, 2003 is
shown below:
                                                                                   September 30, 2003              _
                                                                 Budgetary          Obligations
(Dollars in Millions)                                            Resources           Incurred            Outlays

Statement of Budgetary Resources                                $       16         $       11           $     11

     Longshore and Harbor Workers Compensation                  $      196         $      133           $   133

Budget of the United States Government                          $      212         $      144           $   144




                                                       III -6




26                                                              M.D. Oppenheim & Company, P.C., for the
                                                    U.S. Department of Labor—Office of Inspector General
                                                                            Report No: 22-05-011-04-432
